Rene L. Valladares
Federal Public Defender
District of Nevada

Lori C. Teicher
First Assistant
411 E. Bonneville Ave.
Suite #100
Las Vegas, NV 89101
Tel: 702-388-6577

Aarin E. Kevorkian
Assistant Federal Public Defender

October 20, 2020
Mr. Scott S. Harris, Clerk of Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

United States, Petitioner v. Refugio Palomar-Santiago, Respondent
Supreme Court Case No. 20-437

Dear Mr. Harris:
The United States filed a petition for a writ of certiorari in the abovecaptioned case on October 5, 2020, and it was docketed on October 6, 2020. Mr.
Palomar-Santiago’s response is currently due November 5, 2020.
Mr. Palomar-Santiago respectfully requests, pursuant to Supreme Court Rule
30.4, an extension of time to and including December 7, 2020, within which to file a
response to the petition. 1
This extension is requested so undersigned counsel may adequately prepare a
complete response. Counsel’s preparation has been delayed, in part, due to
logistical concerns and resource issues arising from COVID-19 and the teleworking
that has ensued.

Thirty days from the current due date for Mr. Palomar-Santiago’s response,
November 5, 2020, falls on Saturday, December 5, 2020, with the next business day
falling on Monday, December 7, 2020.
1

Thank you for your kind assistance in this matter.
Sincerely,

Aarin E. Kevorkian

Aarin E. Kevorkian
Assistant Federal Public Defender

cc:

Jeffrey B. Wall, Acting Solicitor General of the United States

